               +"" "

 Department of Health and Human Servces-
         OFFICE OF
    INSPECTOR GENERAL




TRENDS IN URBAN HOSPITAL CLOSURE
            1987 - 1993




                   SUVICES


                             JU   GIBBS BROWN
                             Inspector General
          '1

               ;,o/)I430
                                AUGUST 1995
                                OEI-0495-0050
                        OFFICE OF INSPECTOR GENRA
The mission of the Offce of Inspector General (OIG), as mandated by Public Law 95-452, as
amended , is to protect the integrity of the Department of Health and Human Servces ' (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mision is carred out through a nationwide network of audits , investigations , and
inspections conducted by three OIG operating components: the Offce of Audit Service , the
Office of Investigations ,   and the Offce of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                              OFFICE OF AUDIT SERVICE
The OIG' s Office of Audit Servces (OAS) provides all auditing servces for HHS , either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carryng out their respective responsibilities and are intended to provide independent
asessments of HHS programs and operations in order to reduce waste , abuse, and
mimanagement and to promote economy and effciency throughout the Department.

                              OFFICE OF INTIGATIONS
The OIG' s  Offce of Investigations (01) conducts criminal , civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFICE OF EVALUATION AN INSPECfONS
The OIG' s Offce of Evaluation and Inspections (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress , and the public. The findings and recommendations contained in these inspection
reports generate rapid , accurate , and up- to- date information on the effciency, vulnerabilty,
and effectivenes of departmental programs.


OEI's Atlanta Regional Offce prepared this report under the direction of Jesse J. Flowers
Regional Inspector General and Christopher Koehler , Deputy Regional Inspector General.
Principal OEI staff included:

ATLA OFFCE                                                             HEUAR1E
Ron Kali, (Project Leader)                                             Winnie Walker
Paula Bowker                                                           Linda Moscoe
Pegg Daniel

For additional copies of this report , please call the Atlanta Regional Office at (404)- 331-4108.
                  EXECUTIVE SUMMAR Y

PUROSE
To describe extent , characteristics , and impact of urban hospital closure in the United
States durig a 7-year      period -- 1987 through 1993.


BACKGROUN
Over the past decade , closure of general, acute care hospitals raised concerns about
continued access to care and the appropriateness of related Federal and State health
care policies. A number of studies predicted that hospitals would continue closing for
several years.


We released a report in May 1989 describing the nationwide phenomenon of hospital
closure in 1987. We found that the number of closures was small and did not severely
affect access to care. Thereafter, we issued annual reports on hospital closure for
1988 through 1993. In 1993 , we also reported on trends in rural hospital closures.
This report focuses on trends in urban hospital closures.

FIINGS
Th        rate of uran hopitl cloes genrall decreased     dug    1987     through 1993

In 1987 ,    about 1.1 percent of urban hospitals closed nationally. By 1993 , only about .
percent closed. During the 7-year period , slightly less than one percent of urban
hospitals closed annually, for a total of 6. 6 percent of all urban hospitals operating in
that period.


Pulic hopitals closed at a lower rate than di     private for-profi and   prate non-profi
hopials




About 3. 5 percent of all public hospitals closed during the 7-year period compared to
5.4 percent for private non- profit hospitals and 12.4 percent for private for- profit
hospitals.

Urban hospitals that closed were smllr and       ha lower occupanc rates
Urban hospitals that closed had an average of 93 beds compared to an average of 245
beds for all urban hospitals nationally. On average , urban hospitals nationally had an
occupancy rate of about 57 percent.       Urban hospitals that closed had a relatively
stable occupancy rate of almost 30 percent. The one exception was in 1991 when the
rate was about 36 percent.
Although Medicare occupancy rates increased over the 7-year period , the average
Medicare utilization rate was about the same for closed urban hospitals as for all
urban hospitals nationally (46.3 versus 45. 2 percent). Medicaid occupancy varied from
year- to-year with no obvious pattern. The average Medicaid occupancy of 14.
percent in closed urban hospitals was slightly higher than the 12. 6 percent in urban
hospitals nationally.

Inpati hoitl and
hopital closed

                                        emen €            care was availble     nerby to most €comr whee a€
In 180 of the 196 urban communities (92%) where a hospital closed durig                                   1987

through 1993               inpatient hospital care 
              was available within 10 miles. In 184 of the 196

urban communities (94%),                         emergency care         was available within 10 miles.€

More thn half of the closed                        hopital facilit are being used       for health-related serves
At the time of our review ,   106 of the 196 closed urban hospital buildings (54%) were
being used for health-related servces such as special treatment facilities , outpatient
clinics , and long- term care facilties.
                                                                                                                                   " .. .
                                                                                             . ... ... ... ... .... .... .... .... .... .... .... .... .... .... ...    ..
                                                                                                                                                                   . .... .... ...    ...
                                                                                                                                                                                 . ....         " . .. . ... ... ..... .... ... .. .... . . . ..
                                                                                                                                                                                        .... ...."
                                                                                                                                                                                                 .... .... .... .... .... ... ... ... ... ... ... ... ... ... .. .. .. .. . .
                                                                                                                                                                                                                                                                            . ... . . . . . . ..




                                                                                                    TABLE OF CONTENTS€
                                                                                                                                                                                                                                                                                      PAGE
EXCU SUMY

INODUCTON. .                                                                                                                                                                                                                                          . . . . . . . . . . .. 1€
FIINGS. .                                                                                                                                                                                                                          . . . . . . . . . . . . . . . . . 3€
Exent And Charactertics Of Urban Hospitl Closue€

How Many Closed. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3€

Where Were They. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                                                                                                                          . . . . . . . . . . . . . . 4€
Who Owed Them. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4€
What Were These Hospitals Like. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5€

     Size. .. .. .. . . '" . "€                                                                                                                                                                                                                                              .... .. 5


      Occupancy                                                                                                                                                                                                                       . . . . . . . . . . . . . . . . 7€
     Medicare Utilization                                                                                                                                                                                                                                        . . . . . . . . . 9€
     Medicaid Utilization. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




Impact Of Urban Hospital Closue

How Many Patients Were Affected. . . . . . . . . . . . . . . . . . . . . . . . . . €

Are Inpatient and Emergency Servces Available. . . . . . . . . . . . . . . . . . . . . . . . ..                                                                                                                                                                                                    14


What Is the Building Used for Now. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 14€

ENNOTE. .
APPENICE
A: Methodology................................................ A­


B: Number of Urban Hospital Closures                                                                                                                                by State. .                        . . . . . . . . . . . . . . . . . . . . .. B-
C: Urban                                                         Hospital Closures by Hospital Name , Location,                                                                                                          and Year Closed. . " C-
                          INTRODUCTION€
PUROSE
To describe extent, characteristics , and impact of urban hospital closure in the United
States during a 7-year period -- 1987 through 1993.



BACKGROUN
Over the last decade , closure of general, acute care hospitals has generated increasing
public and congressional concern. Numerous questions have been raised about the
impact of hospital closure on the provision of health care , as well as implications for
public policy. A number of studies predicted that more hospitals would close in
coming years.

The Offce of Inspector General released an inspection report in May 1989 describing
the phenomenon of rural and urban hospital closure during 1987 in the United States.
We found that the number of closures was small and did not severely affect access to
care. Many users of our 1987 hospital closure study encouraged us to continue year-
by-year analyses of the phenomenon to detect diferences in the rate of hospital
closure , and in the characteristics and circumstances of hospitals that close.
Consequently, the OIG conducted similar inspections of hospital closure for the years
1988 - 1993.



This report focuses on urban hospital closures. Unlie our earlier annual hospital
closure reports , it does not combine rural and urban hospital closures. About hal   the
hospitals (52%) in the United States are in urban areas.

SCOPE

We examined urban hospitals that closed during calendar years 1987 through 1993.

For purposes of this study, we used the following definitions.

Urban Hospita: A facilty located in an urban area that provides general , short- term
acute medical and surgical inpatient servces. We used Health Care Financing
Adminstration s (HCFA) Hospital Cost Report Information System to identify
hospitals located in urban areas.

Oosed Hospita: One that stopped providing general, short-term , acute inpatient
servces during 1987 through 1993. If a hospital merged with or was sold to another
hospital but continued to provide inpatient acute care at the physical plant , it was not
considered a closure. If a hospital both closed and reopened in the same year, it was
not considered a closure. If a hospital closed , reopened , and then closed again during
the years in our study, it was counted as a closure only once.
MEODOLOGY
To determine the extent and impact of urban hospital closure , we obtained and
aggregated information from State hospital associations , State licensing and
certification agencies , State health planning agencies , HCF A data bases , offcials
associated with closed and nearby hospitals , and local public offcials.

We obtained information on the characteristics of all urban hospitals and those that
closed durig 1987 through 1993 from the Hospital Cost Report Information System
maintained by HCFA.

We conducted this inspection in accordance with the 

                                                       Quality Standards for Inspections
issued by the President's Council on Integrity and Effciency.

Appendix A describes our methodology in further detail.
                                             FINDINGS€
EX AN CHCTSTCS OF CLSED URAN HOSPITAL€
How Many Closed?€

       Durng   The       Year Period Beginning In            1987, 196      Urban Hospitals Closed- 6.€
       Percent Of All Urban Hospitals Nationally€

In 1987 ,HCFA' s data base showed 5 657 general , short-term, acute care hospitals€
participating in the Medicare program. Of those , 2 705 (48 percent) were rural and€
 952 (52 percent) were urban.€

                     Urban Hospitals in the U.S. in 1987                       952€
                     Closed in 1987 through 1993                               196 (6. 6%)€

The trend in urban hospital closures has generally decreased during 1987 through€
1993. Durig the fist 3 years of the period , about 1.2 percent of urban hospitals€
closed annually. By the last 4 years of the period , only about . 8 percent of the€
hospitals closed annually. On average , less than 1 percent of the 2 952 urban hospitals€
closed each year. The year- by-year closures are ilustrated below.



                           URBAN HOSPITAL CLOSURE€
                                  BY YEAR€
                     # of Closurea





                       1987        1988             1989   1990      1991     1992    1993€
                                                           YEAR€
                                             --




              Hospitals That Closed Had Little Impact On Overall National Bed Capacity

Whe 6. 6 percent of all urban hospitals closed in the United States during the 7-year
period , only 2. 5 percent of the beds (18 294) were lost.

Whre Were 

                       Th?
              Urban Hospitals Closed In                34   States, During The 7-year Period

Texas had the greatest number of urban closures (33) followed by California (25),
Michigan (14), Ilinois (14), and Massachusetts (11). These five States represented 50
percent of the closures. Appendix B lists the number of hospital closures by State
durig the 7-            year period               1987 through 1993.


              Closed Hospitals Were Located In                    145   Urban Communities

Chicago had the greatest number of hospital closures (12) followed by Detroit (9),
Dallas (6), Seattle (6), El Paso (4), Los Angeles (4), Kansas City (3), Phiadelphia (3),
and St. Paul (3). Ten cities had two closures and the remaining 126 cities had one
closure each. Appendix C lists closures by hospital name , location , and year closed
during the 7- year period -- 1987 through 1993.



Wh Ow                   Them?

              In Urban Areas,
                            A Smaller Percentage Of Public Hospitals Closed Than Did
              Prvate Non-Profit And Prvate For-Profit Hospitals

Three and one- half percent of all public hospitals closed during the 7-yearperiod
compared to 5.4 percent for private non- profit hospitals and 12.4 percent for private
for-profit hospitals.



                                                  Total Number            Number of            Percent of

      Hospital Owership                             of Urban             Closed Urban       Hospitals Which
                                                   Hospitals in           Hospitals in      Closed in 1987-

                                                     1987                 1987- 1993*        1993 By Type
      Public
      Private Non- Profit                                                                        5.4%
Wht Were        Th     Cled Hospitls Li?
           Urban Hospitals That Closed Each Year Were Considerably Smaller When
           Compared To The Average Size Of Urban Hospitals Nationally

Over the 7-year period urban hospitals that closed had an average of 93 beds
compared to an average of 245 beds for all urban hospitals nationally. The chart
below shows a year-by-year comparison.

                         URBAN HOSPITALS THAT CLOSED
                                             WERE SMALL€
                     300 -#' of Beds

                     250 -€


                     200 -

                     160 -€


                     100-
                      60 -€



                              1987    1988   1989   1990   1991   1992   1993

                                     National Avg      Closed Hospital Avg€




           Hospital Closure Affected A Higher Percentage Of Smaller Hospitals Than Larger
           Hospitals

Ninety-seven percent (192 of 196) of the urban hospitals that closed were smaller than
the national average of 245 beds. More than half the hospitals (59%) that closed had
fewer than 100 beds.€


Nearly half (46%) of all urban hospitals with fewer than 30 beds closed during the 7-
year period. During this same period , only 1.1 percent of all urban hospitals with 200
or more beds closed. The table on the following page shows that as the size of
hospitals increase , the percentage of closures decreases.
                             AS HOSPITAL SIZ      INCRED
                     TH PERCE OF CLSUR DECRED
                           Total Number of    Number of Urban       Percent of Urban
        Size of            Urban Hospitals     Hospitals that        Hospitals that
       Hospital                in 1987       Closed in 1987- 1993    Closed by Size€

    0:30 beds                                                            45.€
    30 - 49 beds€                146                                     22.€
    50 - 99 beds€                465                                     12.€
    100 - 149 beds€              448                                     10.€
    150 - 199 beds               365€
    200+ beds€                  1468                                     1.%€

      Public Hospitals That Closed In Urban Areas Were Smaller Than Prvate Non-
      Profit And Prvate For-Profit Hospitals

Public hospitals that closed had an average size of 81 beds compared to 101 beds for€
private non-profit hospitals and 88 beds for private for-profit hospitals.€

                                               SIZE
                                   BY TYPE OF OWNERSHIP
                           # of Beds€
                   120 €


                                                  101€
                   100-€

                     80-€

                     60-€

                     40-€

                     20-€

                                PUB              PPP€
                                               PNP
                  7-YEAR AVERAGE/CLOSED URBAN HOSPITALS€
       Prvate For-Profit
                       Hospitals That Closed In Urban Areas Had Lower Occupancy
       Rates Than Public And Prvate Non-Profit Hospitals

Private for- profit hospitals that closed had an average occupancy rate of 27 percent
compared to 32 percent for public hospitals and 33 percent for private non- profit
hospitals.



                                      OCCUPANCY
                             BY TYPE OF OWNERSHIP
                 % Occupancy
          40%-

          35%-               32%                 33%€

          30%-                                                        27%€

          26% -€

          20%-€

          16% -€

          10% -€

           6% -€

           0%-€
                           PUB               PNP                  PFP€
        7-YEAR AVERAGE/CLOSED URBAN HOSPITALS
      Average Medicare Utilization At Urban Hospitals That Closed Was About The
      Same When Compared To All Urban Hospitals Nationally

Over the 7-year period , urban hospitals that closed had an average  Medicare  utilization
of 46. 3 percent compared to an average of 45. 2 percent for all urban hospitals
nationally. 2 The chart below shows a year-by-year comparison.


                         MEDICARE UTILIZATION
                                         BY YEAR

                % Medicare Occupancy
        60%-

        50%-

        40%-

        30%-

        20%-

         10%-

          0%-
                 1987      1988     1989     1990      1991     1992     1993

                         National Avg
       E2 Closed        Hospital Avg
       Prvate For- Profit   Hospitals That Closed   In   Urban Areas Had Lower Medicare
       Utilization Compared To Public And Prvate Non-Profit Hospitals

Private for-profit hospitals that closed had a Medicare utiliztion rate of 41 percent
compared to 49 percent for public hospitals and 48 percent for private non- profit
hospitals.



                                     MEDICARE UTILIZATION
                                        BY TYPE OF OWNERSHIP
                     % Medicare Occupancy
             60%-

                                       49%               48%
             50%-
                                                                        41%

             40%-


             30%-


             20%-


             10% -€



               0%-
                                  PUB               PNP              PFP
           7-YEAR AVERAGE/CLOSED URBAN HOSPITALS€
      Average Medicaid Utilization At Urban Hospitals That Closed Was Higher Than
      The Average Medicaid Utilization Of All Urban Hospitals Nationally

Over the 7-year period , urban hospitals that closed had an average  Medicaid  utiliztion
of 14. 8 percent compared to an average of 12. 6 percent for all urban hospitals
nationally.3 The chart below shows a year-by-year comparison.


                          MEDICAID UTILIZATION
                                         BY YEAR

               % Medicaid Occupancy
        20% -



        15% -



        10% -





          5% -



          0% -

                  1987    1988      1989     1990     1991     1992     1993

                         National Avg       E2 Closed        Hospital Avg
      Public Hospitals That Closed In Urban Areas Had Higher Medicaid Utilization
      Than Did Prvate Non-Profit Hospitals and Prvate For-Profit Hospitals

Public hospitals that closed in urban areas had a Medicaid utilition rate of 18
percent compared to 15 percent for private non- profit hospitals and 13 percent for
private for- profit hospitals.


                            MEDICAID UTILIZATION
                             BY TYPE OF OWNERSHIP
                   % MedIcaid Occupancy
            20%-
                             18%


                                                15%
            15% -

                                                                   13%




            10% -





             5%-



             0%­
                          PUB
              PNP                 PFP
          7-YEAR AVERAGE/CLOSED URBAN HOSPITALS

IMACf OF HOSPITAL CLSUR
How Many Patints Were                 Affected?


       Twenty-eight Patients Were In The          196   Urban Hospitals On An Average Day In
       The Year Pror To Closure


The chart below shows the number of patients affected by urban hospital closure
during the 7- year       period.



                             WHN URBAN HOSPITAL CLOSED

                           HOW MA PATIENTS WERE AFECTD?€
               Average Patient Census                                   93.
               Average Medicare Utilization Rate                      x 30.

               Average Number Medicare Patients                         27.

      Thirteen Medicare And Four Medicaid Patients Were In The Urban Hospital On
      An Average Day During The Year Pror To Closure

The chart below shows the number of elderly and poor affected by urban hospital
closure durig the 7 -year period.



                                  WHN URBAN HOSPITAL CLOSED

                  HOW         MA MEDICARE AN MEDICAID                  PATIENTS

                                             WERE AFECTD?€
                                                          Medicare       Medicaid
                                                          Patients       Patients
              Average Number of Patients
               Daily (all Patients)                          27.          27.
              Average Medicare and

                 Medicaid Utilization Rate                 x 46.        x 14.


              Average Number of Medicare
                 and Medicaid Patients Daily                 12.
                                                           ~~~

Are Inpati             An Emeency Servces Availble?
We assessed availability of inpatient hospital and emergency medical care in miles€
from the closed hospitals to the nearest inpatient and emergency facilities.

            In Most Communities Where A Hospital Closed During The 7- Year Period
            Inpatient Hospital And Emergency Facilities Were Available Nearby

In 180 of the 196 urban communities (92%) where a hospital closed from 1987€
through 1993 ,             residents could get         inpatient hospital care    within 10 miles of the closed
hospital. Most inpatient hospital care is available within 3 miles of the closed facility.
Residents of only one community who lost their hospital must travel over 20 miles for
inpatient care. For Snoqualmie , Washington the nearest hospital is now located 25€
miles away in Bellevue.

For residents in 184 of the 196 urban communities (94%) where a hospital closed
emergency care facilties                   were available within 10 miles from the closed hospital. Most
emergency care is available within 3 miles of the closed facility. The remaining 12
communities are within 20 miles of an emergency facility.

Wht Is        Th      Buiing Used For Now?

Over Half Of The Closed Hospital Buildings Are Being Used For Health-Related                            Services


At the time of our review ,                      106 of the 196 closed urban hospital buildings (54%) were
being used for health-related servces. The following chart ilustrates the use of all 196
hospital facilities after closure during the 7-year period 1987 through 1993.



                                                                                            llg;€
                                   USE            BUILDING€                         NUBER€
                                                                                 FORMR HOSPITAL*€
                   Specialty Treatment Facility€
                   (e. chemical dependency)€
                   Reopened Hospital€
                   Long-Term Care Facility€
                   Outpatient Servces/Clinic€
                   Offces€
                   Vacant€

           *Duplicate count: In some cases more than 1 servce is now offered€
           in the former hospital.€
                        ENDNOTES
Hospital occupancy rate is defined as the actual number of patient days divided
by the total bed days available. National occupancy rate is defined as the sum
of all urban hospitals ' occupancy rates , divided by the number of urban
hospitals.

Average Medicare utilzation of closed urban hospitals is defined as the percent
of Medicare patient days compared to the total patient days for each hospital
summed and divided by the number of hospitals. National average Medicare
utiliation is the percent of Medicare utilzation of each hospital, summed and
divided by the total number of urban hospitals.

Medicaid utilization is calculated in the same way as Medicare utilzation.
                              APPENDIX A€
METHODOLOGY

Ex     Of Urban Hosital    Cloe
To determe how many urban hospitals closed during 1987 through 1993 , we surveyed
State licensing and certification agencies, State hospital associations and State health
plannng agencies. We also compiled Health Care Financing Administration (HCFA)
data on terminated providers in 1987- 1993. When a closed hospital met our study
definition and when there were questions , we contacted offcials associated with the
closed hospitals , offcials associated with hospitals nearest to the closed hospital , and
local public officials.

To detennne the number of hospitals in the United States , we used the Hospital Cost
Report Information System (HCRIS) maintained by HCFA. We included only
general , short-term , acute care hospitals under Medicare s Prospective Payment
System (PPS) in the universe.

Characterti Of Urban Hospital Closue

To analyze characteristics of closed hospitals , we used HCFA's HCRIS data. We used
the latest pre-closure cost reports. For example , if a hospital closed in May 1991 and
its accounting year was on a January-December cycle , we used the provider s January
 , 1990 to December 31, 1990 report.

Impact of Hosital Clsue

We lited our "impact" analysis to the distance from a closed hospital to the nearest
stil-operating hospitals and to emergency servces. We obtained data for our analysis
from intervews with the following sources.

       Former hospital administrators , board members , and/or staff of closed hospitals

       Hospital administrators and/or staff at the nearest hospitals

       Local police and health offcials

       Local governent officials

       State health planning agencies€


       State certification and licensing agencies€


       State hospital associations€
              APPENDIX B

1987 - 1993    URB HOSPITAL CLOSURS


         196 Urban Oosures Raed   By State
                                             APPENDIX C€

                         198-199 URBAN HOSPITAl ClOSURES BY NAE , LOCATION, AND YE   CLOSED

                                                                                              Year
       a, Name€                                          Cit                     State        Closed
Medical Park West                                       Birmingham                            1988
Piedmont Hosp€                                          Piedmont                              1991
North Mobile Communit Hosp€                             Satsuma                               1988
Grays Hosp€                                             Batesville                            1989
Pheonix General Hosp€                                   Pheonix                               1988
Scottsdale Communit Hosp                                Scottsdale                            198
Valley View Communit Hosp€                              Youngtown                             199
Buena Park Communit Hosp                                Buena Park€                           1987
Rancho Encino Hosp€                                     Encino                                199
Fowler Municipal Hosp€                                  Fowler                                199
Wheeler Hosp€                                           Gilroy                                198
Hayward Hosp                                            Hayward                               1988
Kingsburg General Hosp€                                 Kingsburg                             1987
Medical Center/LMlrada€                                 La Mlrada€                            199
Domlngquez Medica Center€                               Long Beach                            1991
Metropol an Hosp€                                       Los Angeles                           1988
Marina Hils Hosp€                                       Los Angeles                           199
Linda Vista Communit Hosp€                              Los Angeles€                          1991
Beverly Hils Medical Center                             Los Angeles€                          1993
Channel islands Communit Hospilal                       Oxnard                                1989
Christian Hosp aI Medical Center€                       Perris                                1991
Pico Rivera Communit Hosp                               Pico Rivera€                          199
Shasta General Hosp€                                    Redding                               1987
Ros General Hosp€                                       Ross                                  1988
Communit Hosp al Sacramento€                            Sacramento                            198
Communit Hosp al of Salinas                             Salinas                               1990
AMI Clairmont Communit Hosp                             San Diego€                            1988
San Diego Physicians and Surgeons€                      San Diego€                            1991
AMI Communit Hosp al of Santa Cruz€                     Santa Cruz€                           199
Suncrest Hosp al of Orange County                       Stanton€                              199
North Kern Hosp                                         Wasco€                                1987
Yolo General Hosp€                                      Woodland€                             1991
Doctors Hosp€                                           Colorado Springs€                     1989
Rocky Mountain- Hosp€                                   Denver€                               1989
Memorial Hosp€                                          Greeley€                              1987
AMC Cancer Research Center€                             Lakewood€                             1989
Park Cit Hosp                                           Bridgeport€                           1993
Cap ol Hil Hosp                                         Washington€                           1991
North Gables Hosp€                                      Coral Gables€                         199
Clay Memorial Hosp€                                     Green Cove Springs€                   199
Humana Hosp aI-South Broward€                           Hollyood€                             1991
North Miami Medical Center€                             Miami€                                1990
Deering Hosp€                                           Miami€                                199
Southeasern Medical Center€                             North Miami Beach€                    1989
Universit Hospilal€                                     Pensacola€                            1992
Centro Austurlano Hosp                                  Tampa€                                199
Doctors Hosp al of Tampa                                Tampa€                                1993



                                                         C - 1€
                     198- 199 URB HOSPITAL CLOSURES BY NAE,      LOCA1l0N , AND   YE CLOSED    (Co)

                                                                                                      Year
 Hosp aI Name                                           Cit                            Stale          Closed
Physicians and Surgeons Hosp€                          Atlanta                                        199
Atlanta Hosp€                                          Atlanta                                        199
St. Joseph' s Hosp€                                                                                   1989
Provident Medical Center
                              Chicago                                        1987
Walher Memorial Hosp                                   Chicago                                        1987
Hosp al of Englewood                                   Chicago                                        1988
Frank Cuneo Memorial Hosp€                             Chicago                                        1988
St. Anne s Hosp€                                       Chicago                                        198
Mary Thompson Hosp€                                    Chicago                                        1988
Lutheran General Hosp€                                 Chicago                                        1989
Mount Sinai North Hosp€                                Chicago                                        1989
Sheridan Road Hosp€                                    Chicago                                        1989
Central Communit Hosp                                  Chicago                                        199
Lakeside Communit Hosp                                 Chicago                                        1991
Martha Washington Hosp                                 Chicago                                        1991
Gateway Communit Hosp                                  East St. Louis                                 1989
Memorial Hosp al Corporation of Topeka                 Topeka                                         1989
Dixon Memorial Hosp                                    Denham Springs                                 1987
Montelepre Hosp                                        New Orleans                                    198
Our Lady of Lourdes Hosp                               St. Martinsville                               198
Amesbury Hosp                                          Amesbury                                       199
Massachusetts Osteopathic Hosp al and Medical Center   Boston                                         199
Brookline Hosp                                         Brookline                                      1988
Saneta Maria Hosp                                      Cambridge                                      1989
Hunt Hosp                                              Danvers                                        199
Holden Hosp                                            Holden                                         199
Mary A. Alley Hosp                                     Marblehead                                     1987
St. Luke s Hosp                                        Middleboro                                     199
Parkwood Hosp                                          New Bedford                                    1987
Choate Hosp                                            Woburn                                         198
Worcester Cit Hosp                                     Worcester                                      1991
Homewood Hosp al Center South                          Ballimore                                      1991
Parkwood Hosp                                          Clinton                                        1989
Leland Memorial Hosp€                                  Riverdale                                      1993
Tayior Hosp€                                           Bangor                                         1989
Springwells Healh Center€                              Dearborn                                       1987
Lakeshore Hosp                                         Detro                                          1987
Metropoll!an Hosp al and Heallh Center€                Detrol!                                        1987
A. Blain Hosp€                                         Detro                                          1987
Detrol! MemoriaL Hosp€                                 Detrol!                                        1987
Brent General Hosp                                     Detro                                          1988
Northwest General Hosp                                 Detro                                          199
Southwest Detro Hospl!al                               Detro                                          1991
Docors Hosp                                            Detro                                          199
North DetroGeneral Hosp                                Detro                                          199
Detro Osteopathic Hosp                                 Highland Park                                  1992
Redford Communit Hosp                                  Redford                                        1989
Millon Communit Hosp                                   River Rouge                                    1987
Westland Medical Center                                Westland                                       199
Eveleth Hosp                                           Eveleth                                        1993
St. John s Eastslde Hospllal                           St. Paul                                       1987
Samar an Hosp                                          St. Paul                                       1987
Mounds Park Hosp                                       St. Paul                                       1987



                                                        C-2
                         198- 199 URBA HOSPITAL ClOSURES BY NAE, LOCATION, AND YE ClOSED (Co)
                                                                                                Year
Hospital Name                                              Cit                    State         Closed
Universit Hospital                                        Kansas Cit                            1988
St. Mary s North€                                         Kansas Cit                            1988
Lakeside Hospital€                                        Kansas Cit                            199
Deaconess Hospital- North
                                Normandy                              1993
Lindell Hospital€                                         St. Louis                             1988
Central Medical Center Hospital€                          St. Louis                             1993
Doctors Hospital€                                         Jackson                               1991
South Bergen Hospital€                                    Hasbrouck Heights                     1987
The Livingston Communit Hospital€                         livingston                            1988
St. Mary s   Hospital€                                    Orange                                1989
Kennedy Memorial Hospital of Saddle Brook€                Saddle Brook                          199
Presbyterian Northside Hospital€                          Albuquerque                           1993
Incline Vilage Communit Hospital€                         Incline Vilage                        1990
Arnold Gregory Memorial Hospital                          Albion                                1989
Baptist Medical Center€                                   Brooklyn                              1987
St. Francis Hospital/Bufalo€                              Bufalo                                199
Adirondack Regional Hospital€                             Corinth                               1990
Parsons Hospital€                                         Flushing                              1988
Emma Laing Stevens Hospital€                              Granvile                              1989
Sheridan Park Hospital€                                   T onawanda                            1987
Tioga General Hospital€                                   Waverly                               199
St. John Hospital€                                        Cleveland                             1990
Northeastern Ohio General Hospital€                       Madison                               1988
Wellngton Communit Hospital                               Wellngton                             1989
Hominy Cit Hospital                                       Hominy                                1990
Southwest Medica Center                                   Moore                                 1993
Docors General Hospital€                                  Oklahoma Cit                          199
Cit of Faith Hospital                                     Tulsa                                 1989
Cascade Communit Hospital€                                Central Point                         1987
Eugene Hospital and Clinic€                               Eugene                                1988
Holladay Park Medical Center€                             Portland                              199
Carbondale General Hospital€                              Carbondale                            199
Westmoreland McGinnis Hospital€                           Ligonier                              1992
Universit Medical Center                                  Philadelphia                          1988
Medical COllege Hospital/Lwndale Division                 Philadelphia                          199
Cooper Hospital€                                          Philadelphia                          1993
Phllipsburg State General Hospital€                       Phllipsburg                           1991
St. John s Heaith and Hospital Center€                    Pitsburg                              198
Scranton State General Hospital€                          Scranton                              1988
Notre Dame Hospital€                                      Central Falls                         1989
Cranston General Hospital€                                Cranston                              1993
Divine Savior Hospital€                                   York                                  1991
Sequatchle General Hospital€                              Dunlap                                1993
Northwest General Hospital€                               Knoxvile                              1989
St. Mary s North Hospital€                                Lake Cit                              1988
Humana Hospital- McFarland
                               Lebanon                               199
Smyrna Hospital€                                          Smyrna                                1988
Seton Holy Cross Hospital€                                Austin                                1989
Gull Coast Hospital€                                      Baytown                               1992
Buna Medical Center Hospital€                             Buna                                  1990
Corpus Christi Osteopathic Hospital€                      Corpus Christi                        1990
Dallas Medical and Surgical Hospital€                     Dallas                                1987
Gaston Episcopal Hospital€                                Dallas                                1988



                                                           C-3
                      198-199 URBA HOSPITAL ClOSURE BY NAE, LOCTION , AND YE ClOSED (Co)
                                                                                                         Year
 Hosptlal Name                                                     Cit                           State   Closed
Southwest Dallas Hosptlal                                         Dallas                                 1991
Lake Clif Hosptlal                                                Dallas                                 199
Dallas Memorial Hosptlal                                          Dallas                                 1993
Southeastern Methodist Hospttal                                   Dallas                                 1993
Flow Memorial Hospttal                                            Denton                                 1988
Northpark Hospttal                                                EI Paso                                1987
Ysleta General Hospttal                                           EI Paso                                1987
Landmark Medical Center                                           EI Paso                                1988
Valley Communit Hospttal                                          EI Paso                                1993
Continental Hospttal North                                        FI. Worth                              1987
Deaton Hospttal                                                   Galena Park                            1987
Hart Clinic Hospttal                                              Gladewater                             1988
Medical Center - Gladewater                                       Gladewater                             199
Whttcomb Memorial Hospttal                                        Grand Prairie                          1988
Omni Hosptlal and Medical Center                                  Houston                                1988
Charles R. Drew Medical Center
                                   Houston                                199
Pioneer Park Hospttal
                                            Irving                                 1988
Oakwood Family Hospttal
                                          Lubbock                                1988
West Texas Hospttal
                                              Lubbock                                1991
HCA Mansfeld Hosptlal
                                            Mansfeld                               1988
Mesqutte Physicians Hosptlal
                                     Mesqutte                               1991
New Boston General Hospttal
                                      New Boston                             1987
Tri- Cit Regional Hospttal
                                       Pasadena                               1993
King Wiliam Heatth Center
                                        San Antonio                            1988
Lutheran General Hospttal                                         San Antonio                            1991
Taft Hospttal District                                            Taft                                   1988
Communit Hospttai of Tyler                                        Tyler                                  1991
Jefferson Hospttal
                                               Alexandria                             1992
Northgate General Hospttal                                        Seattle                                1987
Shorewood Osteopathic Hospttal                                    Seattle                                1987
Pacmc Medical Center                                              Seatle                                 1987
Medical Dental Hosptlal                                           Seattle                                1988
West Seattle Communit Hospttal                                    Seatle                                 199
SI. Cabrini Hosptlal of Seattle                                   Seattle                                199
Snoqualmie Valley Hospttal                                        Snoqualmie                             199
SI. Lukes Memorial Hospttal                                       Spokane                                1993
Communit Hospttal
                                                Yakima                                 199
SI. Anthony s Family Medical    Center
                           Milwaukee                              1988
First Hospttal of Milwaukee
                                      Milwaukee                              1988
New Berlin Memorial Hospttal                                      New Berlin                             1988
Guthrie Memorial Hospttal
                                        Huntington                             1988
Doctors Hospttal
                                                 South Charleston                       199
Weirton Osteopathic Hospttal
                                     Weirton                                1993
Note: "lnce Ine time OT our review   some or Ine nospitalslistec as Clsures may nave reopenea.




                                                                   C - 4

